     Department of Homeland Security

     ��������������������������



   Big Rivers Electric Corporation Meets FEMA's 

   Eligibility Requirements for Participation in the 

               Public Assistance Program 





DA-13-28                                 September 2013

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                                  Washington, DC 20528 I www.oig.dhs.gov

                                              SEP 1 3 2013


MEMORANDUM FOR:               Major P. (Phil) May
                              Regional Administrator, Region IV
                              Federal E erge y Management Agency

FROM:                         John V. KeJly
                              Assistan(    pector General
                              Office of Emergency Management Oversight

SUBJECT:                      Big Rivers Electric Corporation Meets FEMA's Eligibility
                              Requirements for Participation in the Public Assistance Program
                              FEMA Disaster Number 1818-DR-KY
                              Audit Report Number DA-13-28

We audited Big Rivers Electric Corporation's {Big Rivers) eligibility to receive Public Assistance
funding from the Federal Emergency Management Agency (FEMA) {FIPS Code 000-UONLE-00).
Big Rivers received a Public Assistance award totaling $1.8 million from the Kentucky Division of
Emergency Management {StateL a FEMA grantee, for damages resulting from a severe winter
storm and flooding, which occurred January 26 to February 13, 2009.

Because the Internal Revenue Service {IRS) revoked Big Rivers' tax-exempt status in 1983, we
limited our audit objectives to determining whether Big Rivers {1) met FEMA's eligibility
requirements to apply for and receive FEMA assistance under a Public Assistance grant and
{2) met FEMA's legal responsibility criteria for disaster-related repairs. We did not audit the
eligibility and appropriateness of costs that Big Rivers claimed under the FEMA award.

We conducted this performance audit between March and July 2013 pursuant to the Inspector
General Act of 1978, as amended, and according to generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based upon
our audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based upon our audit objective. To conduct this audit, we applied the
statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We interviewed Big Rivers, State, and FEMA personnel; reviewed applicable Federal regulations
and FEMA guidelines; reviewed applicable organization eligibility documents and other relevant
information provided by Big Rivers, the State, and FEMA; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of Big




www.oig.dhs.gov                                                                          DA-13-28
                                  OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

Rivers’ internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective.


                                               BACKGROUND

Big Rivers is a generation and transmission cooperative headquartered in Henderson, Kentucky.
The three member cooperatives that own Big Rivers (Kenergy Corporation, Jackson Purchase
Energy Corporation, and Meade County Rural Electric Cooperative Corporation) distribute retail
electric power to more than 112,000 homes, farms, businesses, and industries across
22 counties in western Kentucky. Big Rivers supplies the wholesale power needs of the
member cooperatives and markets surplus power to non-member utilities and power markets.

We audited Kenergy Corporation, one of the three cooperatives that own Big Rivers, and issued
our report on June 18, 2013. 1 During that audit, it came to our attention that Big Rivers may
not be an eligible private, nonprofit applicant, and that it may not have been legally responsible
for disaster-related repairs because it had leased its generating facilities to another
cooperative.


                                             RESULTS OF AUDIT

Big Rivers qualifies as a nonprofit organization within the Commonwealth of Kentucky, and it
met FEMA’s legally responsible criteria for disaster-related repairs to its facilities. Therefore, Big
Rivers satisfied the eligibility requirements to receive financial assistance under FEMA’s Public
Assistance program.

Eligible Applicant. Big Rivers meets the requirements to be an eligible applicant under the
Public Assistance program. FEMA regulation 44 CFR 206.222 states that the following entities
are eligible to apply for FEMA assistance under a State Public Assistance grant:

    •	 State and local governments;
    •	 Private nonprofit organizations or institutions that own or operate a private nonprofit
       facility as defined in 44 CFR 205[sic].221(e); 2 and



1
  OIG Report DA-13-20, FEMA Should Recover $3.8 Million of Public Assistance Grant Funds Awarded to Kenergy
Corporation, Henderson, Kentucky, June 2013.
2
  44 CFR 206.222(b) contains a typographical error. The correct citation should be “206.221(e),” which is the
correct citation for the definition of a private nonprofit facility.

www.oig.dhs.gov                                         2                                      	      DA-13-28
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   •	 Indian tribes or authorized tribal organizations and Alaska Native villages or
      organizations, but not Alaska Native Corporations, the ownership of which is vested in
      private individuals.

Further, 44 CFR 206.221(f) defines a private nonprofit organization as any nongovernmental
agency or entity that currently has—

    •	 an effective ruling letter from the U.S. Internal Revenue Service (IRS), granting tax
       exemption under sections 501(c), (d), or (e) of the IRS Code of 1954; or
    •	 satisfactory evidence from the State that the nonrevenue producing organization or
       entity is a nonprofit one organized or doing business under State law.

Big Rivers’ 2009 annual report raised a question concerning its nonprofit status that could
affect its eligibility for FEMA public assistance funding. According to the annual report, the
Corporation is a member-owned, private not-for-profit, generating and transmission
cooperative. However, the IRS revoked Big Rivers’ tax-exempt status in 1983. Note 7 (Income
Taxes) on page 38 of Big Rivers’ 2009 audited financial statements states—

       Big Rivers was formed as a tax-exempt cooperative organization

       described in the IRS Code Section 501 (c) (12). To retain tax-exempt

       status under this section, at least 85% of the Big Rivers’ receipts must be

       generated from transactions with Big Rivers’ members. In 1983, sales to 

       nonmembers resulted in Big Rivers failing to meet the 85% requirement. 

       Until Big Rivers can meet the 85% member income requirement, Big 

       Rivers is a taxable cooperative.


On March 12, 2013, we discussed the organization’s nonprofit status with Big Rivers’ officials.
At the meeting, Big Rivers’ officials said that, although the utility had lost its IRS tax-exempt
status, it remained a non-profit organization under Commonwealth of Kentucky laws. The
officials provided us with the organization’s tax returns and other documentation to support
their assertions. We reviewed the documentation and determined that Big Rivers, in fact, did
meet FEMA’s requirements as an eligible non-profit organization. Under Kentucky law, with
certain exceptions, an organization can qualify and operate as a non-profit electric cooperative,
provided it does no more than 49 percent of its business with nonmembers of the cooperative.
In 2009, the year in which Big Rivers received Public Assistance funding, only 13 percent of its
gross receipts came from non-members. Therefore, under Kentucky law, Big Rivers qualified
and operated as a nonprofit electric cooperative in 2009. This status made Big Rivers eligible to
apply for and receive a FEMA Public Assistance grant.




www.oig.dhs.gov                                 3                                     	   DA-13-28
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

Legal Responsibility. Big Rivers also met FEMA’s legal responsibility criteria for disaster-related
repairs to its facilities. Federal regulation 44 CFR 206.223(a)(3) states that an item of work must
be the legal responsibility of an eligible applicant to be eligible for FEMA assistance. In July
1998, Big Rivers leased its generation facilities to Western Kentucky Energy Corporation. While
the lease terms ran through 2023, the two entities mutually terminated the lease on July 17,
2009 (more than five months after the disaster), through an early termination agreement
referred to as the “Unwind Transaction.”

On March 12, 2013, we met with Big Rivers’ officials to discuss whether Western Kentucky
Energy Corporation or Big Rivers had the legal responsibility for damages caused to the
facilities. At the meeting, Big Rivers’ officials said that, although Big Rivers had leased the
facilities in 1998, it had retained ownership of the generation facilities both during and at the
end of the lease term. They provided us with documentation to support their assertion. We
reviewed the documentation and concluded that Big Rivers met FEMA’s legal responsibility
criteria for the disaster-related repairs to the facilities. Therefore, the costs are eligible for
FEMA reimbursement provided they meet other FEMA eligibility and allowability requirements.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our review with Big Rivers, FEMA, and State officials on
July 23, 2013. Because the audit did not identify issues requiring further action from FEMA, we
consider this audit closed.

Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are David Kimble, Director; Felipe Pubillones, Audit Manager;
Mary Stoneham, Auditor-in-Charge; and Angelica Esquerdo, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                                  4                                        DA-13-28
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                                                        Appendix


                                     Report Distribution

Department of Homeland Security
Acting Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief of Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-024-EMO-FEMA)

State
Executive Director, Kentucky Department of Emergency Management
State Auditor, Kentucky

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Subgrantee
Big Rivers Electric Corporation

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                                5                        DA-13-28
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
